                                Theodore W. Grolimund
                          Certified Information Systems Auditor (CISA)
                  Certified Information Systems Security Professional (CISSP)

P.O. Box 6561                                                     Alexandria, VA 22306-6561
703-660-6092                                                             theodoreg@aol.com

    Year 2000 Internal Efforts: Certification & Contingency Planning Status


                                    Executive Summary
.
The Securities and Exchange Commission (SEC), Office of Inspector General (OIG)
engaged the services of a certified information systems (CIS) auditor to perform agreed-
upon procedures on SEC’s certification process for internal mission critical systems and
for reviewing internal contingency planning efforts for the Year 2000 (Y2K). These
agreed-upon procedures were performed solely to assist the OIG in evaluating internal
certification processes and contingency planning efforts within the Commission.

The agreed-upon procedures were to:
• Evaluate the certification processes of internal mission critical applications,
• Perform limited inquiries on contingency planning activities over internal information
   technology (IT) systems maintained by the Office of Information Technology (OIT),
   and
• Perform limited inquiries to SEC’s Y2K Project Coordinator within the Office of the
   Executive Director (OED) on business contingency planning activities in the event of
   internal IT system interruptions.

The audit scope intentionally does not cover any Y2K aspects of the securities industry
for which the SEC has oversight authority. In addition, no opinion is offered on the
sufficiency of evidence to support any SEC system as Year 2000 compliant, nor is any
opinion being given to certify any SEC system as Year 2000 compliant.

Results In Brief:

•     The Commission is making progress in certifying its systems.
•     The concepts behind certification support good management practices.
•     In regards to Y2K compliance status and contingency planning activities, we obtained
      a copy of a letter from an independent contractor that indicated to the Chairman on
      September 2, 1999, the following:
      ⇒ As of August 31st, 1999, the SEC has successfully completed the Year-2000 (Y2K)
          renovation and validation of the Commission’s automated information systems.
          All mission-critical systems and other operational-support systems, intended to
          operate in the Y2K timeframe, are now fully Y2K compliant in accordance with
          General Accounting Office (GAO) guidelines,



SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status   December 10, 1999
                                                                                                         2


         ⇒ Y2K compliant systems have either been placed into full production or are on
            schedule to complete the transition to full production,
         ⇒ An initial baseline set of contingency plans related to SEC mission-critical
            systems has been completed, and
         ⇒ During November 1999, these contingency plans will be validated and
            promulgated across the Commission.
   •     A readiness test of the EDGAR backup site was performed on August 21, 1999. The
         EDGAR contractor concluded that the EDGAR back-up site was properly configured
         and provides a back-up capability for the production system.
   •     During the audit, SEC’s Year 2000 Contingency Plan1 and OIT’s contingency plans
         were still being refined. Additional testing by the Commission is planned.

Recommendations in Brief:

   • The Executive Director and the Chief Information Officer should ensure that business
   and information technology contingency plans are tested (i.e. validated) as planned prior
   to the Year 2000.

For the long term, the Commission should maintain and build upon the accomplishments of
   the Y2K effort to improve overall management of SEC’s information resources. The
   lessons learned from the Y2K effort should be used to guide the development of policies
   and procedures to support best practices.

   •     The Executive Director and Chief Information Officer (CIO) should ensure that
         appropriate policies and procedures are implemented to maintain and test business
         and information technology contingency plans,
   •     Jointly, the CIO and Executive Director should issue Commission-wide policies and
         procedures to identify and assign system and data ownership roles and
         responsibilities,
   •     The CIO should implement policies and procedures to authorize and revalidate
         system processing,
   •     The CIO should continue sponsoring the certification process of the remaining
         uncertified systems, and
   •     The CIO should implement policies and procedures to improve system life cycle
         management (i.e. change-controls, configuration management, quality assurance).

   Observations and recommendations are listed in the Audit Results section of the report.
   A draft of the report was provided for comment to OIT, the Office of the Executive
   Director (OED) and OIG on November 2, 1999. Various comments were received and
   the report was modified as appropriate.

   Scope & Methodology

   1
       SEC’s Year 2000 Contingency Plan is sponsored within the Office of the Executive Director.


    SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status         December 10, 1999
                                                                                               3


The Securities and Exchange Commission (SEC), Office of Inspector General (OIG)
engaged the services of a certified information systems auditor. The CIS auditor
performed agreed-upon procedures on SEC’s certification process for internal mission
critical systems and reviewing internal contingency planning efforts for the Year 2000
(Y2K). These agreed-upon procedures were performed solely to assist the OIG in
evaluating internal certification processes and contingency planning efforts within the
Commission. No representation regarding the sufficiency of these agreed upon
procedures is being made.

The agreed-upon procedures were to:
• Evaluate the certification processes using a judgmental sample of internal mission
   critical applications,
• Perform limited inquiries on contingency planning activities over internal information
   technology (IT) systems maintained by the Office of Information Technology (OIT),
   and
• Perform limited inquiries to SEC’s Y2K Project Coordinator within the Office of the
   Executive Director (OED) on business contingency planning activities in the event of
   internal IT system interruptions.

Procedures included interviewing key OIT and OED personnel, reviewing relevant
policies and documentation, and reviewing prior OIG reports and recommendations that
may be applicable to this audit. To assist the evaluation of the certification process a
judgment sample was used. This judgmental sample represents the 53 internal mission
critical systems reported in SEC’s June 1998 report to Congress (Second Report on the
Readiness of the Unites States Securities Industry and Public Companies To Meet the
Information Processing Challenges of the Year 2000). In addition, GAO’s publications
entitled Year 2000 Computing Crisis: A Testing Guide (GAO/AIMD-10.1.21) and Year
2000 Computing Crisis: Business Continuity and Contingency Planning (GAO/AIMD-
10.1.19) were obtained to identify applicable best practice criteria. Office of Management
and Budget’s (OMB) Circular A-130 was also used as best practice criteria.

No opinion is being given on the sufficiency of evidence to support any SEC system as
Year 2000 compliant, nor is any opinion being given to certify any SEC system as Year
2000 compliant. In addition, the audit scope intentionally excludes any Y2K aspects of
the securities industry for which the SEC has oversight authority.

This engagement was performed in accordance with the General Accounting Office’s
Government Auditing Standards and standards established by the Information Systems
Audit Control Association (ISACA). The fieldwork was performed from September 2nd,
1999, through October 28th, 1999. This report is intended solely for the information and
use of the SEC OIG and management, however this report is a matter of public record
and its distribution is not limited.
                                      Background



SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status   December 10, 1999
                                                                                                 4


The Office of Inspector General (OIG), United States Securities and Exchange
Commission initiated a series of reports and memoranda on the Commission’s efforts to
reduce internal Year 2000 (Y2K) vulnerabilities. The OIG in its continuing efforts on the
Year 2000 problem engaged the services of a certified information systems (CIS) auditor
under Purchase Order No. PCHQ9906252 to complete the OIG’s Year 2000 audit efforts.

Previously, the OIG issued the following reports on the Year 2000 problem: Audit
Memorandum No. 8 (May 18, 1998); Year 2000 Compliance (Audit Report No. 285 -
August 24, 1998); Year 2000 Status Report (Audit Report No. 293 - January 25, 1999);
and EDGAR Y2K Status (Audit No. 297 - March 19, 1999). The OIG also contracted
with an independent CPA firm to audit non-information technology areas for Y2K
compliance over embedded systems such as elevators, building and fire security systems
(Audit No. 291-Year 2000 Non-Information Technology, August 9, 1999).

An independent contractor performing IV&V (independent verification and validation)
activities sent a letter to the Chairman which indicated in-part that:
• as of August 31st, 1999, the Commission had successfully completed Y2K renovation
    and validation of the Commission’s automated information systems,
• all mission-critical systems and other operational-support systems, intended to
    operate in the year 2000, were now fully Y2K compliant, in accordance with GAO
    guidelines, and
• Y2K compliant systems had either been placed into full production or were on
    schedule to complete the transition to full production.

As implemented at the SEC, Y2K compliance and Y2K certification are not synonymous.
Y2K compliance indicates that Y2K testing and applicable remediation occurred,
whereas certification indicates that the system owner has accepted the system. As
originally conceived in SEC’s Year 2000 Program Management Plan, certification was to
be part of the Y2K compliance process indicating (see Section 3.4.8) that “the
application owner will complete the certification and will sign, along with the certifying
official that the application is Y2K compliant and ready for implementation into the
production environment.” Certification was intended to take place after Y2K testing but
before putting a system into production. Subsequently, the Plan was superseded (as
explained below) whereby Y2K certifications of Y2K compliant systems would take
place generally after the systems were in production. Consequently, Y2K compliance
and Y2K certification have different connotations. An uncertified application or system
does not necessarily imply that it is not Y2K compliant.

The Chief Information Officer and other senior officials within the Office of Information
Technology (OIT) indicated the Year 2000 Program Management Plan was superseded
due to operational demands in January 1999 when the Chairman directed widespread
testing and remediation of all systems by August 31st, 1999, with the full understanding
among system owners and other senior Commission officials that documentation
including certification would occur as soon as practicable thereafter. The Commission’s

2
    Purchase Order Number PCH0990625 issued on June 8, 1999, includes non-related Y2K work.


SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status     December 10, 1999
                                                                                                        5


Y2K compliance effort included figuratively thousands of hardware and software items.
The table below provides a brief summary of items involved. EDGAR, the
Commission’s premier and most critical system is included as one of the 187 software
applications.

                     Summary of Y2K Compliance Efforts
            Infrastructure:  2,915 Windows or OS/2 workstations
                             1,067 laptops
                             145 servers
                             152 network components retired
            Software:        187 applications
                             593 commercial or governmental products
                             including 190 mainframe software products
            External:        69 data file exchanges with 24 partners
                             72 commercial services (e.g. Bloomberg)
                Source: Data obtained from the SEC’s Office of Information Technology.




To help ensure that Commission systems remained Y2K compliant, the Executive
Director issued a memo reminding Division Directors, Office Heads, Regional Directors
and District Administrators that Y2K compliance must be maintained and stressed the
importance of making no major changes to software applications, operational
environment, telecommunications, and infrastructure until March 2000.

In its comments, OIT management described numerous positive aspects to SEC’s Y2K
compliance program which include:
• senior Commission officials including the Chairman were regularly briefed on
    program status,
• communications between the Y2K team and program offices on their specific systems
    were held on a regular basis,
• the IV&V contractor role was appropriately increased to address the expanded scope
    of testing, and
• the goal established by the Chairman for Y2K compliance was met.

                                           Audit Results
I. Certification Process

As indicated in the “Background” section, the certification of systems would occur as
soon as practicable after August 31st, 1999.

Based on a sample of 53 mission critical applications, the Commission is making
progress to certify its systems. Only seven systems were certified as of August 28, 1999.
As of October 22, 1999, the number of certified systems increased to 23. See table for
the certification status of the judgmental sample.


SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status            December 10, 1999
                                                                                                                 6




                               Judgment Sample
               Certification Status of 53 Mission Critical Applications
                                        (As of October 22, 1999)
               Certified                                                    23
               Pending Certification                                        20
               Retired without replacement                                   9
               Dropped                                                       1
                Source:   Prepared by CIS auditor under contract by Office of Inspector General




The certification process entails the preparation of a certification packet by OIT that
documents in brief certification recommendations; Y2K test results, exceptions and
discrepancies; and forwarding the certification packet for system acceptance by the
system owner, Y2K Project Director within the Office of the Executive Director, and
OIT’s Y2K Director.

In the auditor’s opinion the concept behind certification support good management
practices. These management practices include: authorization and validation of a system
to process in a production status, promoting accountability by identifying and assigning
specific owner(s) to each system, promoting an understanding of owner(s) roles and
responsibilities over their system and the data it processes. Certification is one of many
activities that can be leveraged from the Y2K effort to strengthen the management of
Commission information resources for the long term.

Recommendations:

A. The Chief Information Officer (CIO) should continue sponsoring the Y2K
   certification process of the remaining uncertified systems.
B. The CIO should issue Commission-wide policy to authorize and revalidate system
   processing by system owners at least once every three years or whenever a major
   systemic change occurs, whichever happens sooner.
C. Jointly, the CIO and Executive Director should develop and issue Commission-wide
   policies and procedures to identify and assign system and data ownership roles and
   responsibilities.

II. Business Continuity and Contingency Planning Efforts

Based on the CIS auditor’s limited inquiries to the Y2K Project Director and to OIT
management, the SEC is progressing in developing its internal contingency plans. An
overall SEC Year 2000 Contingency Plan is being sponsored by the Y2K Project
Director within the OED and information technology contingency plans are being
sponsored within the OIT. During the audit’s field work, these plans were being refined.
No opinion is expressed on the sufficiency of these plans.




SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status                     December 10, 1999
                                                                                               7


An independent contractor, in a letter dated September 2, 1999, indicated that an initial
baseline set of contingency plans related to SEC mission-critical applications has been
completed and that during November 1999, these plans will be validated and
promulgated across the Commission.

The auditor obtained a test analysis report for the EDGAR back-up site (dated September
23, 1999). The test was conducted on August 21, 1999, and based on the test results the
EDGAR contractor concluded that the back-up site was properly configured and provides
a back-up capability for the production system.

The Commission intends to perform additional contingency testing. Good business
practices indicate that business continuity and contingency plans should be tested.
Untested plans can lead to a false sense of security.


Recommendation:

D. The Executive Director and Chief Information Officer should ensure business and
   information technology contingency plans are tested (i.e. validated) as planned prior
   to the Year 2000.

III. Other Issues

The Y2K project has involved significant resources, much work and many issues.
Among them were identification and inventorying of systems, identification of system
owners, strengthening system life cycle management (i.e. change controls, configuration
management, quality assurance), and the development of information technology and
business continuity plans.

The accomplishments and benefits of the Y2K effort can and should be leveraged to
strengthen overall management of SEC’s information resources. The lessons learned
from the Y2K effort can be used to develop or tailor practices and guide the development
of appropriate policies and procedures in support of best practices. These
accomplishments should be maintained by instituting and following appropriate policies
and procedures.

Recommendations:

E. To maintain and strengthen the accomplishments brought about by SEC’s Y2K effort,
   the Chief Information Officer should implement appropriate policies and procedures
   over system life cycle management (i.e. change controls, configuration management,
   quality assurance).

F. The Executive Director and Chief Information Officer (CIO) should ensure that
   appropriate policies and procedures are implemented to maintain and test business
   and information technology contingency plans.


SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status   December 10, 1999
                                                                                               8




                                           Appendix
                                       List of Acronyms


EDGAR-          Electronic Data Gathering, Analysis, and Retrieval

GAO -           General Accounting Office

IV&V -          Independent Verification and Validation

OED -           Office of Executive Director

OIG -           Office of Inspector General

OIT -           Office of Information Technology

OMB -           Office of Management and Budget

SEC -           U.S. Securities and Exchange Commission




SEC’s Year 2000 Internal Efforts: Certification & Contingency Planning Status   December 10, 1999
